No.

IN THE
SUPREME COURT OF THE UNITED STATES

In

flJ/l Ramz Makeless! y pro sc

— PETITIONER

(Your Name)

VS.
— RESPONDENT(S)
PROOF OF SERVICE

I

, do swear or declare that on this date,
1 <S
, 20sLL, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF
on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days. /W Role Jjhl
<2.6,H sbkwnt
Fbr
(Ao\rt PETITION PoK tOFUT of
$ 8U) $(Cdm. Ex-6i)
The names and addresses of those served are as follows:
Lull ft, damn , oFFfctcf

GenuAl #F

lol tiorlh 9 ^ siro-ti
Rkknad, VB JUI9
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

■iuly

IS

20AL

(Signature)

